   DEPARTMENT OF HEALTH & HUMAN SERVICES                                OFFICE OF INSPECTOR GENERAL

                                                                         Washington, D.C. 20201




December 10, 2009

TO:            Yvette Sanchez Fuentes
               Director, Office of Head Start
               Administration for Children and Families


FROM:          /Lori S. Pilcher/
               Assistant Inspector General for Grants, Internal Activities,
                 and Information Technology Audits


SUBJECT:       Results of Limited Scope Review of Eastern Catawba Cooperative Christian
               Ministry Head Start Program (A-04-09-00064)


The attached final report provides the results of our limited scope review of Eastern Catawba
Cooperative Christian Ministry – Head Start (the grantee), for the period July 1, 2008, through
June 30, 2009. This review was requested by the Administration for Children and Families,
Office of Head Start as part of its overall assessment of Head Start grantees that have applied for
additional funding under the Recovery Act.

The Recovery Act was signed into law by President Obama on February 17, 2009. The
Recovery Act includes measures to modernize our nation’s infrastructure, enhance energy
independence, expand educational opportunities, preserve and improve affordable health care,
provide tax relief, and protect those in greatest need.

At the President’s direction, Federal agencies are taking critical steps to carry out the Recovery
Act effectively. All Federal agencies and departments receiving Recovery Act funds must
maintain strong internal controls and implement oversight mechanisms and other approaches to
meet the accountability objectives of the Recovery Act.

The objective of our limited scope review was to assess the grantee’s financial viability, capacity
to manage and account for Federal funds, and capability to operate its Head Start program in
accordance with Federal regulations.

Based on our assessment, we believe the grantee is financially viable, has the capacity to manage
and account for Federal funds, and is capable of operating a Head Start program in accordance
with Federal regulations. However, the grantee’s financial management, procurement, and
property internal control systems included weaknesses that diminished its capacity to manage
and account for Federal funds and to operate its Head Start program in accordance with Federal
regulations. These internal control weaknesses existed because the grantee did not comply with
Page 2 – Yvette Sanchez Fuentes


Federal requirements and its Head Start financial policies, and it did not fully implement
corrective actions included in its approved Quality Improvement Plan. As a result, Head Start
grant funds for budget period July 1, 2008, through June 30, 2009, may have been at risk.

In written comments on our draft report, the grantee offered narrative comments and additional
documentation as evidence to demonstrate that it had established controls in the areas where we
reported control deficiencies. However, the grantee has a history of operating its program
without adequate internal controls. We are unable to comment on the adequacy of the corrective
actions the grantee indicates it has taken without conducting a review of these controls to test
their reliability. Therefore, we have no basis to revise the findings in our draft report. The
grantee needs to provide adequate assurance to ACF that it is capable of operating its program in
a manner that protects Federal interests.

In determining whether the grantee should be awarded additional Head Start and Recovery Act
grant funding, we recommend that ACF consider the information presented in this report in
assessing the grantee’s financial condition.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to
contact me at (202) 619-1175 or through email at Lori.Pilcher@oig.hhs.gov. Please refer to
report number A-04-09-00064 in all correspondence.


Attachment
  Department of Health and Human Services
              OFFICE OF
         INSPECTOR GENERAL




RESULTS OF LIMITED SCOPE REVIEW OF
  EASTERN CATAWBA COOPERATIVE
  CHRISTIAN MINISTRY HEAD START
             PROGRAM




                         Daniel R. Levinson
                          Inspector General

                           December 2009
                           A-04-09-00064
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY
BACKGROUND

Pursuant to P.L. 110-134, Improving Head Start for School Readiness Act of 2007, Head Start is
a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly five percent cost-of-living increase and bolster
training and technical assistance activities.

Eastern Catawba Cooperative Christian Ministry, Inc., a not-for-profit agency, operates a Head
Start program that provides education, health, and social services to low-income preschool
children and their families at locations throughout Newton and Hickory, in Catawba County,
North Carolina. Eastern Catawba Cooperative Christian Ministry – Head Start (the grantee) also
operates a food program.

The grantee is funded primarily through Federal and State government grants. During the period
July 1, 2008, through June 30, 2009 (FY 2009), ACF directly provided grant funds to the grantee
totaling $1,126,310.

The grantee did not receive Recovery Act grant funding for FY 2009.

OBJECTIVE

The objective of our limited scope review was to assess the grantee’s financial viability, capacity
to manage and account for Federal funds, and capability to operate its Head Start program in
accordance with Federal regulations.

SUMMARY OF FINDINGS

Based on our assessment, we believe the grantee is financially viable, has the capacity to manage
and account for Federal funds, and is capable of operating a Head Start program in accordance
with Federal regulations. However, the grantee’s financial management, procurement, and
property internal control systems included weaknesses that diminished its capacity to manage
and account for Federal funds and to operate its Head Start program in accordance with Federal
regulations. These internal control weaknesses existed because the grantee did not comply with
Federal requirements and its Head Start financial policies, and it did not fully implement
corrective actions included in its approved Quality Improvement Plan. As a result, Head Start
grant funds for budget period July 1, 2008, through June 30, 2009, may have been at risk.



                                                 i
RECOMMENDATION

In determining whether Eastern Catawba Cooperative Christian Ministry – Head Start should be
awarded additional Head Start and Recovery Act grant funding, we recommend that ACF
consider the information presented in this report in assessing the grantee’s financial condition.

EASTERN CATAWBA COOPERATIVE CHRISTIAN MINISTRY HEAD START
PROGRAM COMMENTS

The grantee’s response to our draft report offered narrative comments and additional
documentation as evidence to demonstrate that it had established controls in the areas where we
reported control deficiencies. We included the grantee’s narrative comments, without the
additional documentation, as the Appendix. The grantee’s additional documentation contained
sensitive information.

OFFICE OF INSPECTOR GENERAL RESPONSE

The grantee’s response offers evidence of internal controls that, if in place and followed, would
improve the accountability and control over Federal funds. However, these controls were not
evident during our review, and a prior ACF review found similar internal control weaknesses.
The grantee has a history of operating its program without adequate internal controls. We are
unable to comment on the adequacy of the corrective actions the grantee indicates it has taken
without conducting a review of these controls to test their reliability. Therefore, we have no
basis to revise the findings in our draft report. The grantee needs to provide adequate assurance
to ACF that it is capable of operating its program in a manner that protects Federal interests.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                             Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              Head Start Program......................................................................................1
              Eastern Catawba Cooperative Christian Ministry, Inc. ...............................1
              Requirements for Federal Grantees .............................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope............................................................................................................2
               Methodology ................................................................................................3

FINDINGS AND RECOMMENDATIONS ....................................................................3

          FINANCIAL MANAGEMENT SYSTEM INTERNAL CONTROLS NEED
             IMPROVEMENT ..............................................................................................4
                Separation of Accounting Duties .................................................................4
                Monitoring Credit Card Usage.....................................................................4
                Monitoring Cash Receipts............................................................................4
                Maintaining Required Documentation for In-Kind Contributions ..............4

          PROCUREMENT SYSTEM INTERNAL CONTROLS NEED
            IMPROVEMENT ..............................................................................................5
               Maintaining Required Documentation for Purchasing and Receiving ........5

          PROPERTY SYSTEM INTERNAL CONTROLS NEED IMPROVEMENT .......6
               Maintaining Inventory Records ...................................................................6
               Monitoring Inventory Procedures and Inventory Log .................................6

          NONCOMPLIANCE WITH QUALITY IMPROVEMENT PLAN.......................6

          RECOMMENDATION ...........................................................................................7

          EASTERN CATAWBA COOPERATIVE CHRISTIAN MINISTRY HEAD
            START PROGRAM COMMENTS ..................................................................7

          OFFICE OF INSPECTOR GENERAL RESPONSE ..............................................7

APPENDIX

          EASTERN CATAWBA COOPERATIVE CHRISTIAN MINISTRY HEAD START
            PROGRAM COMMENTS



                                                                   iii
                                       INTRODUCTION
BACKGROUND

Head Start Program

Pursuant to P.L. 110-134, Improving Head Start for School Readiness Act of 2007, Head Start is
a national program that promotes school readiness by enhancing the social and cognitive
development of children through the provision of educational, health, nutritional, social, and
other services to enrolled children and families. Within the U.S. Department of Health and
Human Services, the Administration for Children and Families (ACF) administers the Head Start
program.

The Head Start program provides grants to local public and private non-profit and for-profit
agencies to provide comprehensive child development services to economically disadvantaged
children and families, with a special focus on helping preschoolers develop the early reading and
math skills needed to be successful in school. Head Start programs engage parents in their
children’s learning and emphasize parental involvement in the administration of local Head Start
programs.

Under the American Recovery and Reinvestment Act of 2009, P.L. No. 111-5 (Recovery Act),
enacted February 17, 2009, ACF received $1 billion, including nearly $354 million to help
improve staff compensation and training, upgrade Head Start centers and classrooms, increase
hours of operation and enhance transportation services. An additional $356 million was
allocated to award all Head Start grantees a nearly five percent cost-of-living increase and bolster
training and technical assistance activities.

Eastern Catawba Cooperative Christian Ministry, Inc.

Eastern Catawba Cooperative Christian Ministry, Inc., a not-for-profit agency, operates a Head
Start program under the legally separate entity Eastern Catawba Cooperative Christian Ministry
– Head Start (the grantee) that provides education, health, and social services to low-income
preschool children and their families at locations throughout Newton and Hickory, in Catawba
County, North Carolina. The grantee also operates a food program.

The grantee is funded primarily through Federal and State government grants. During the period
July 1, 2008, through June 30, 2009, ACF directly provided grant funds to the grantee totaling
$1,126,310.

The grantee did not receive Recovery Act grant funding for FY 2009.

Requirements for Federal Grantees

Pursuant to 45 CFR § 74.21, grantees are required to maintain financial management systems
that contain written procedures for determining the reasonableness, allocability, and allowability
of costs. Grantees must maintain accounting records that are supported by source documentation
and must maintain financial systems that provide for accurate and complete reporting of grant



                                                 1
related financial data. Grantees are also required to compare outlays with budget amounts for
each award and may use grant funds only for authorized purposes.

Federal regulations (45 CFR §§ 74.40 and 74.41 through 74.48) set forth standards for use by
recipients in establishing procedures for the procurement of supplies and other expendable
property, equipment, real property, and other services with Federal funds.

45 CFR § 74.34(f) lists the requirements for a grant recipient’s property management system to
include:

        (1) Equipment records shall be maintained accurately and shall include . . . :
                (i) A description of the equipment;
                (ii) Manufacturer’s serial number, model number . . . other identification
                number;
                (iii) Source of the equipment including the award number;
                (iv) Whether title vests in the recipient or the Federal Government; . . .
                (vii) Location and condition of the equipment . . . ;
        (4) recipient shall maintain a control system to insure adequate safeguards to
        prevent loss, damage, or theft of the equipment.

OMB Circular A-133 subpart C §_.300 states that the auditee shall:

. . . (f) Follow up and take corrective action on audit findings, including preparation of a
summary schedule of prior audit findings and a corrective action plan in accordance with
§_.315(b) and §_.315(c), respectively.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

The objective of our limited scope review was to assess the grantee’s financial viability, capacity
to manage and account for Federal funds, and capability to operate its Head Start program in
accordance with Federal regulations.

Scope

This review was performed based upon a limited scope request from ACF. Therefore, we did not
perform an overall assessment of the grantee’s internal control structure. Rather, we reviewed
only the internal controls that pertained directly to our objective. Our review period was July 1,
2008, through June 30, 2009 (fiscal year (FY) 2009).

We performed our fieldwork at the grantee’s office in Newton, North Carolina, from July 6
through July 16, 2009.




                                                 2
Methodology

To accomplish our objective, we:

       reviewed relevant Federal laws, regulations, and guidance;

       reviewed the grantee’s fiscal procedures related to accounting documentation and
        preparation of financial reports;

       obtained Federal grant award documentation to determine the grantee’s Federal funding;

       reviewed the grantee’s financial statements for FYs 2006 through 2009; 1

       reviewed the grantee’s expense accounts and monthly financial statements;

       performed liquidity and stability analyses of the grantee’s finances; and

       provided a summary of our findings to the grantee for comment.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                              FINDINGS AND RECOMMENDATIONS

Based on our assessment, we believe the grantee is financially viable, has the capacity to manage
and account for Federal funds, and is capable of operating a Head Start program in accordance
with Federal regulations. However, the grantee’s financial management, procurement, and
property internal control systems included weaknesses that diminished its capacity to manage
and account for Federal funds and to operate its Head Start program in accordance with Federal
regulations. These internal control weaknesses existed because the grantee did not comply with
Federal requirements and its Head Start financial policies, and it did not fully implement
corrective actions included in its approved Quality Improvement Plan. As a result, Head Start
grant funds for budget period July 1, 2008, through June 30, 2009, may have been at risk.

We identified the following financial management, procurement, and property system internal
control weaknesses that need improvement.




1
 We reviewed the grantee’s audited financial statements for FYs 2006, 2007, and 2008, as well as the grantee’s
unaudited FY 2009 financial statement, which was not finalized during our fieldwork. The FYs 2006, 2007, and
2008 financial statements included the OMB Circular A-133 Single Audit Reports.


                                                        3
FINANCIAL MANAGEMENT SYSTEM INTERNAL CONTROLS NEED
IMPROVEMENT

Separation of Accounting Duties

The grantee did not follow its policy for ensuring separation of duties in accounting. Contrary to
Federal requirements at 45 CFR § 74.21 and its accounting policy, the Governing Board
Treasurer, Executive Director, Head Start Director, and Administrative Assistant did not perform
various accounting duties needed to maintain appropriate internal controls over accounting, fiscal
operations, and fiscal staff. The Fiscal Officer controls most aspects of the financial
management system, including performing cash drawdown transactions from the payment
management system, reconciling bank accounts, entering and processing vendor invoices,
preparing general journal entries, and preparing financial statements. The grantee’s accounting
policy states: “Due to the size of the organization, the fiscal staff consists of the Fiscal Officer.
The Governing Board Treasurer, Executive Director, Head Start Director, and Administrative
Assistant perform various accounting duties to maintain appropriate internal controls.”

Monitoring Credit Card Usage

The grantee did not follow its policy for monitoring credit card usage. Contrary to Federal
requirements at 45 CFR § 74.21 and its credit card policy, the grantee did not use the credit card
log to monitor credit card usage. The Fiscal Officer stated that there was a credit card log, but
she had not yet implemented it. The grantee’s credit card policy states that credit cards will be
logged out from the Fiscal Office to make approved purchases and logged back in
after purchases. The policy also states that monthly credit card statements will be reconciled
with the credit card log.

Monitoring Cash Receipts

The grantee did not follow its policy for monitoring cash receipts. Contrary to Federal
requirements at 45 CFR § 74.21 and its cash receipts policy, the Head Start Director did not sign
and date the Head Start bank statements. The grantee’s cash receipts policy states that the bank
statements will be received directly and unopened by the Executive Director and the Head Start
Director. The Head Start Director and Executive Director will review the statements for checks
issued, vendors paid, amounts paid, and endorsements. Any discrepancies will be immediately
investigated. After the review, the Head Start Director will sign and date the bank statements
and forward to the fiscal office for reconciliation. The bank statements for May 31 and June 30,
2009, did not provide evidence that the Head Start bank statements were received directly and
reviewed by the Executive Director and the Head Start Director.

Maintaining Required Documentation for In-Kind Contributions

The grantee did not follow its policy for ensuring that all in-kind contributions were adequately
documented, necessary, and reasonable for the proper and efficient accomplishment of Head
Start objectives. Contrary to Federal requirements at 45 CFR § 74.21 and its in-kind
contributions policy, the grantee did not consistently complete the in-kind forms. The grantee’s



                                                 4
policy for in-kind contributions states that the in-kind forms should include the volunteer’s name
and address (if possible), date, complete description of volunteer duties or complete description
of items donated (along with fair market value), signature of volunteer, and signature of staff
coordinator.

Our review found that some in-kind forms omitted the purpose of the donated services, the basis
for determining the valuation of donated services, volunteer information, the staff coordinator
signature, verification, and a complete description of volunteer duties. For example, the grantee
claimed $6,958 for the value of donated service time associated with parent activities spent at
home with their children from November 2008 through January 2009. However, the grantee did
not document how it estimated the value of the donated service time for each activity completed.
Furthermore, the grantee did not document how the donated services advanced the
accomplishment of program objectives.

PROCUREMENT SYSTEM INTERNAL CONTROLS NEED IMPROVEMENT

Maintaining Required Documentation for Purchasing and Receiving

The grantee did not comply with Federal requirements at 45 CFR § 74.40 through
45 CFR § 74.48 and did not follow its policy for maintaining required documentation for
purchasing and receiving. The grantee’s procurement policy states that purchase orders will be
prepared for all purchases, unless the vendor is recurring. Purchase orders will be pre-numbered
and include the date, vendor, description, general ledger code, amount, purpose, date needed,
signature of staff requesting goods, and approval of the purchase order if the purchase is allowed.
Purchase orders will be filled out completely then submitted to the Head Start Director for
approval. The Head Start Director will review the purchase order before approval to verify that
the items requested are necessary and not duplicated. The original copy of the purchase order
will then be given to the Fiscal Officer, a copy will be given to the staff member requesting the
purchase, and a receiving copy will be given to the Administrative Assistant to compare with the
order when received. The staff members making the requests will indicate receipt of the goods
on their copies of the purchase orders.

The grantee did not consistently provide evidence for advance authorization of purchases. A
review of the accounts payable history found several payment vouchers without the purchase
orders. For example, vouchers number 5162, 5395, 5372, and 5269 were missing the purchase
requisition forms. Moreover, a review of selected invoices that had purchase requisition forms
found that the purchase requisition forms were not pre-numbered and were incomplete. For
instance, some requisition forms were missing the general ledger code, amount, purpose, date
needed, and signature of both the staff member requesting the goods and the approving official.

The grantee did not maintain controls for ensuring prior to payment that the correct items were
received in the correct quantity and at the correct price. For example, the invoice attached to
voucher 5247 indicated that 13 items were purchased; however, no evidence suggested the items
on the invoice were either reviewed for accuracy or were actually received. These 13 items were
shipped via UPS ground, but there was no supporting documentation, such as a receiving ticket
or a packing slip.



                                                5
PROPERTY SYSTEM INTERNAL CONTROLS NEED IMPROVEMENT

Maintaining Inventory Records

The grantee did not comply with Federal requirements at 45 CFR § 74.34(f) and did not follow
its inventory policy for maintaining inventory records. The grantee’s property management
policy for inventory requires that the inventory log be maintained by the Transportation
Manager, include consecutively assigned control tags, and list the condition of the equipment at
the time of inventory. The Transportation Manager did not consistently tag inventoried items
and did not list the condition of the assets. Of the 17 assets selected in our review, 5 were tagged
with the incorrect control number and 3 were not tagged at all. In one instance, an employee had
in her possession a notebook computer that was not tagged.

Monitoring Inventory Procedures and Inventory Log

The grantee did not comply with Federal requirements at 45 CFR § 74.34(f) and did not follow
its inventory policy for monitoring the inventory procedures and inventory log. The grantee’s
property management policy for inventory states that once the physical inventory is complete, a
copy of the inventory log will be given to the Fiscal Officer to reconcile with the general ledger
accounts. Any discrepancies will be immediately investigated. The Fiscal Officer did not
sufficiently monitor inventory procedures or the inventory log and, as a result, did not identify
the aforementioned discrepancies in inventory records.

NONCOMPLIANCE WITH QUALITY IMPROVEMENT PLAN

Besides not following its own Head Start financial policies, the grantee did not fully comply with
its QIP as required by OMB Circular A-133 subpart C. As part of its last onsite monitoring
review, ACF reported various deficiencies to the grantee in its “Overview of Findings” dated
January 15, 2009. The grantee submitted corrective “Actions to be Taken” as part of the QIP.
The QIP stated in part:

       a. Financial policies and procedures will be reviewed and revised to assure
       inclusion of adequate internal controls, separation of duties, especially related to
       procurement process and credit card usage as well as audit findings . . . .

       d. Governing board will review, revise and implement procedures for oversight
       of fiscal operations and to support separation of duties by assigning specific
       responsibilities to specific board members as necessary . . . .

       f. Standardized forms for purchasing and ordering will be developed and
         implemented . . . .

       h. Fiscal procedures are monitored . . . .

Although the grantee reported to ACF that these corrective actions would be taken, we found
certain internal control weaknesses which indicated that these corrective actions were not fully



                                                 6
implemented. The grantee’s failure to take adequate corrective actions contributed to its internal
control weaknesses and allowed previously identified deficiencies to continue. This lack of
controls diminished the grantee’s capacity to manage and account for Federal funds and to
operate its Head Start program in accordance with Federal regulations.

RECOMMENDATION

In determining whether Eastern Catawba Cooperative Christian Ministry – Head Start should be
awarded additional Head Start and Recovery Act grant funding, we recommend that ACF
consider the information presented in this report in assessing the grantee’s financial condition.

EASTERN CATAWBA COOPERATIVE CHRISTIAN MINISTRY HEAD START
PROGRAM COMMENTS

The grantee’s response to our draft report offered narrative comments and additional
documentation as evidence to demonstrate that the grantee had established controls in the areas
where we reported control deficiencies. We included the grantee’s narrative comments, without
the additional documentation, as the Appendix. The grantee’s additional documentation
contained sensitive information.

OFFICE OF INSPECTOR GENERAL RESPONSE

The grantee’s response offers evidence of internal controls, that if in place and followed, would
improve the accountability and control over Federal funds. However, these controls were not
evident during our review, and a prior ACF review found similar internal control weaknesses.
The grantee has a history of operating its program without adequate internal controls. We are
unable to comment on the adequacy of the corrective actions the grantee indicates it has taken
without conducting a review of these controls to test their reliability. Therefore, we have no
basis to revise the findings in our draft report. The grantee needs to provide adequate assurance
to ACF that it is capable of operating its program in a manner that protects Federal interests.




                                                7
APPENDIX
                                                                                                                                                    Page I of5

APPENDIX: EAST ERN CATAWBA COOPERATIVE CHRISTIAN MINISTRY HEAD
                    START PROGRAM COMMENTS


                                          Eastern Ca tlJ\\ba Cuopcralil e C hriSliun t\ linislry 

                                                          He:ld Sla r t Program 


                                       "l'rovidJ~
                                                                               "'""" 

                                                     c"""",,/v;nJJ'c $n\I(:C'> 10 \I~."" "' ......... r [h,rbIe Child..... 

                                                          Andn.." F..."I.e, In ('ala","" c....ruy"
         Tuny       ~:.   Uunton                                                                                               i'oIory ,\ , (;~ "'p~1I
         E~ ccullve       O,,\'clOr                                                                                            Head Sian Dirccl()r




            Report Number:                A-04-09-00064


            Pelet' J. Barbera
            Rcgionallnspeclor General
            For Audit Services


            Dcar Mr. Barbera,

            Please lind enclosed ollr wriuen response and documentation to draft report entitled
            " Results of Limited Scope Review at eastern Catawba Cooperative Christian Ministry
            Head Slatt for the Period July I, 2008, through June 30, 2009,"


            If you need clanili·fiil.
                                   ~';iOi".oi'.ii
                                               ~ y.oiltih 'iI'.IIIilonn'III
                                                               ;"'.Ii ';iOIi"iP'i
                                                                              .=                      fed free to contactme or the
            Fiscal Officer,



            Sincerely,


          ~~~Ior 

            ECCCM '·Iead Stan




            1'.0.    Ro~ I"l~      • lOt s.   ~f\'IIIA''''   . 1'11"""01.   "'onhC~rolona 286~H · (828)46.1·81i7~ ·      En (828)466.31\00
                                                                                               Page 2of5




Financial Ma nagement Syste m Internal Controls Need Improvemt:nt

Separation or Accounting Duties

In response 10 the allegation that ECCCM Head Start did not follow its policy for
ensuring separation of duties in accounting we would like to present the following
documents as proof of this separation.

 The Admi nistrative Assistant is respo nsible for receiving and documenting all checks
and cash received by the program. This informat ion is recorded on a monthly cash
receipts log and indicates the date rece ived, the payer, the ehcck# is applicable, the
amount, and the date forwarded to the Fiscal Officer. The Administrative Assistant and
the Fiscal Officcr both sign ofT on this form. This procedure was implemented in
February 2009 and we are unac h.ing documents that support this statement. This
documentation is included in appendix A.

The Ad ministrative Assistant is also responsible for initiating purchase orders. A
purchase order log is maintained listing the pre-numbered purchase orders, the date they
are given to a requesting staff member, the date received, and the date reconciled. This
log is signed by the Administrative Assistant and the requesting stafT member. 'fhis is a
new procedure that has been implemented to comply with our Qlr. The review team did
not review any of these docu ments because the implementation of this procedure began
July I, 2009. Due to the timing of their visit, no purchases had been initiated in thc ncw
fiscal year so there were no documents to review. Attached you will find documents to
su pport this procedure from FY 2010. This documentation is included in Appendix B.

In an effort to further separate accounting duties a part time Data Entry/ Accounting Clerk
has been hired. It was explained to the audi t team that this position would be in effcct in
FY 20 10 but hiring had to wait until our new fi scal year had begun. This position was
advertised to the public the last week of July 2009 and the position was filled on August
24, 2009. This new member of the accounting department will be responsible for
processing payroll and accounts payable, reconc iling bank statements, perform Data
Entry and will ultimately serve as a support position for the ECCCM Head Start Fiscal
Department. Attached you will fmd documentation to support our information. This
documentation is included in appendix C.

'Ibe Head Slart Director provides appropriate intemal controls by reviewing and
approving all financial transactions for the ECCCM Head Start program. The Executi ve
Director and Head Start Director also monitor cash receipts and disbursements by
reviewing the bank statements before they are given to the Fiscal Officer for
reconciliation. They both also have access to an online banking account that allows them
to access bank account information at any time they desire. This documentation is
included in appendix D.
                                                                                               Page 3 of5




Mon ito rin g Credit Car d Usage

In response to the allegation that ECCCM Head Stan did nol follow its policy for credit
card usage we present the following infonnation and docwnenls for suppon.

ECCCM Head Start received the resul ts of their last onsite O1olutoring review on January
15, 2009. As a result of the deficiencies identified during this review a QIP was
developed. The ECCCM Head Start program had unti l July 17, 2009 to fully comply
with thei r QIP. Thc financial policies and proced ures o f ECCCM Head Stan were
rev ised in February 2009. In the revisions the policies stated that a credit card log would
be maintained and compared to credit eard statements o n a monthly basis. This
procedure was fully implemented on J uly 1,2009 but again due to the liming of the visit
there were not any purchases that had been made in FY 20 I 0, so there were no
documents for the team to review. We have attached docwnentation to show Ihat this
procedure has been implemented in our FY 2010. This documentation is included in
appendix E.

Mo nitoring Cash Receip ts

In response 10 the allegation that ECCCM Head Start did not follow its policy for
monitoring cash receipts we present the following docwnents for review. The policy
states that the Executive Direclor and Head Start Director will receive the bank
statcments directly and unopened. lbis policy has been in effecl since February 2009
when our policies were revised. The Executive Director receives the statements directly
and unopened at his office on East 0 Street in NeWlon, NC. The Head Start Director also
receives the statements directly and unopened al the office o n S. Ervin Avenue in
NeWlon, NC. In April 2009, the Head Start Director, with recommendations made by the
Fiscal Officer, requested that the bank statements be sent to the program via the online
banking website. The intention of this change was so these statements could be directly
imponed in to the computerized accounting system to aid in the reconci liation process. In
June 2009, it was noted that the online statement could not be imported in the fonnat
required by \.he computeri zed accounting system so lhc l'lead Stan Director requested that
the bank statements be sent 10 the progrnm lhe way they had been previously. [I took the
bank a month to conven back 10 the previous direction of mailing \.he statements so the
June 2009 bank slatement was delivered via the onlinc banking website. The Executive
Director and the Head Start Direclor have the login infonnation so they were able to go
online and view these statements prior to the Fiscal Officer reconciling the accounts.
Since both the Execulive Director and the Head Start Director have access to the online
banking account this allows them to access bank account infonnation at any time they
desire and the infonnation they receive is current and accurate and provided in reaI· time
SO there is no delay in receiving the infonnation. This documentation is included in
appendix D.
                                                                                               Page 4 of5




Maintaining Required I>oc u mentatio n for In-)(jnd Contributions

In response to the al legation that ECCCM Uead Start did not follow its policy for
ensuring that all ill-kind contributions wcre adequately documented, necessary, and
reasonable for the proper and efficient accomplishment of Head Start objectives we
present the following information.

ECCCM has an in-kind valuation chart that is used for dctcnui nin g the value of donated
services. These rates were used in the calculation of in-kind and while the fonus may nOI
have showed the actual calculation the rate that the in-kind was valued at could be
located on this chart. For the activities that the audit tearn has referenced in their
findings, it has come 10 oU! attention thaI these activities may nOI be allowable activities
so they will no longer be used by th e program. The amount of in-kind from these
act ivities will be obtained from other sources. This documenlation is included in
appendix F.

Procurement System I nter fla l Controls Need Improvement
Maintllining Required Oocumentation for Purcb asi ng and Rcceiving

In response to the allegation that ECCCM Hcad Stan did not follow its pol icy for
maintaining required documentation for purchasing and receiving we present the
fo llowing infonnation and documents for review.

The ECCCM Head Start Financial ..olicies and Procedures were revised in February
2009 in order to comply with deficiencies identified in the last onsite monitoring review.
The revised policies were submitted to the ACF regional office in February 2009 with the
monthly Q IP update. The vouchers that the audit team reference in their report are dated
prior to the receipt of the letter from ACF with the results ofthcir triennial review and
prior to the revision of the Financial Policies. The dates of the vouchers are as fol low;;:
Voucher #5269 to Discount School Supply - dated 1112412008
Voucher # 5395 to NCHSA - dated 01126/09
Voucher II 5 162 to Elan - dated 10113/08
Voucher #5247 to Discount School Supply - dated 1111912008
Voucher 1153n to Atlanta Hilton and Towers - da ted 01 126109

If the audit team had reviewed documents from FY 20 10 they would have seen that the
policies had been fully implemented by the dead line of Jul y 17,2009 established by
ACF. We are including documentation from FY 2010 that will show these policies have
been fully implemented. This documentation is included in appendix D.
                                                                                            Page 50f5




Property System Internal Controls Need Improvem ent
Maintainil.lg Inventory Reeords & Maintaining Inventor), Procedures and I.oventor)'
Log

In responsc 10 the allegation that ECCCM Head Start did not fo llow ils policy for
maintaining inventory records and monitoring the invenlory procedures and inventory log
we present the following infonnation.

In the revised Financial Policies the rcsponsibihty of maintaining inventory logs was
assigned to thc Operations Officcr (fonnerly Transportation Manager). The
discrepancies in the inventory log had nol been discovered because the Operations
Officcr had nOI completed an inventory since the responsibility had been assigned 10 her.
In future inventories the control tags will be consecutive and the log will list the
condition ofthc equipment at the time of the inventory and any discrepancies between the
inventory log and the GL will be investigated immediately by the Fiscal Officer.

Noncompliance with Quality Improvement Plan

In response to the allegation that ECCCM Head Start did not fully comply with its QIP as
required we present the following documents for review. We are enclosing a copy of the
final QIP monthly report that was sent to the regio nal office on July 16,2009. In this
final report it outlines the work that was completed and documentation to prove the
completion.

We feel that with the documentation provided in both the final QIP monthly report and
the documents thai we arc submitting for your review you will find that ECCCM Head
Start did fully comply with the requirements of our QIP. This information is included in
append ix G.
